JUNE 18, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




REVIEW OF NASA’S MICROGRAVITY FLIGHT SERVICES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-015 (ASSIGNMENT NO. S-09-008-01)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CO           Contracting Officer
COTR         Contracting Officer’s Technical Representative
FAR          Federal Acquisition Regulation
FCOD         Flight Crew Operations Directorate
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
SOMD         Space Operations Mission Directorate


                                                              REPORT NO. IG-10-015
JUNE 18, 2010




                                                                                              OVERVIEW

           REVIEW OF NASA’S MICROGRAVITY FLIGHT SERVICES

                                                                                                The Issue

  NASA began microgravity flight operations at Johnson Space Center in 1973 using
  Government-owned, Government-operated aircraft. Microgravity flight operations
  provide a short duration reduced gravity environment for NASA research, engineering,
  astronaut training, and education. NASA first used a modified Boeing KC-135A and
  later a McDonnell Douglas DC-9B (C-9) as the Agency’s microgravity flight services
  aircraft. In 1995, the House Committee on Science reported1 that Congress found no
  national security or mission-critical justification for NASA to maintain its own fleet of
  aircraft to provide a short duration microgravity environment via parabolic flight.2
  Accordingly, Congress directed that NASA privatize microgravity parabolic flight
  operations. However, at that time NASA could not find a viable domestic source for the
  services. In January 2008, NASA awarded the Zero Gravity Corporation (Zero G) a
  1-year, $4.8 million indefinite-delivery, indefinite-quantity contract,3 for microgravity
  services after a competitive procurement.4

  We initiated this audit to determine whether Zero G was providing adequate microgravity
  flight services and whether NASA was paying for microgravity services in accordance
  with the contract terms. In addition, we reviewed NASA’s efforts to disposition its C-9
  aircraft. Details of the audit’s scope and methodology are in Appendix A.

                                                                                                    Results

  Zero G has provided inconsistent quality levels of microgravity flight services since it
  began providing NASA with reduced gravity flights in August 2008. We concluded that
  NASA should revise the contract’s performance-based payment structure to motivate

  1
      House Report 104-233, which commented on the National Aeronautics and Space Administration
      Authorization Act, Fiscal Year 1996. Available online at http://frwebgate.access.gpo.gov/cgi-
      bin/getdoc.cgi?dbname=104_cong_reports&docid=f:hr233.104.pdf (accessed April 21, 2010).
  2
      Parabolic flights are achieved when an aircraft flies at altitudes between 24,000 and 34,000 feet
      conducting aerobatic maneuvers that resemble a series of gently rolling hills creating about 20 to
      30 seconds of weightlessness.
  3
      The contract consisted of a base year, 2008, and four option years. Maximum value of the contract is
      approximately $26 million if NASA exercises all options through 2012.
  4
      In November 2006, the Office of Inspector General (OIG) received an anonymous complaint alleging that
      the procurement for microgravity services may be improper, would waste Government funds, and would
      raise potential safety concerns. We did not find evidence to substantiate the complaint.



REPORT NO. IG-10-015
                                                                                                      OVERVIEW



     Zero G to provide more consistent, high-quality microgravity flights. We also found that
     NASA had not implemented a risk management plan that adequately identified and
     mitigated risks associated with the possibility of Zero G not providing microgravity flight
     services in the future. In addition, we found that NASA’s payments to Zero G of
     approximately $2 million over a two-year period were in accordance with the contract
     terms, with the exception of a $23,000 overpayment that was due to math errors.

     The Quality of Zero G’s Microgravity Flight Service Was Inconsistent. We
     determined that Zero G’s performance in providing microgravity flight services over the
     life of the contract has been inconsistent. During some of the period of performance,
     Zero G’s performance was satisfactory. However, their performance during other periods
     was not. Specifically, the percentage of parabolas meeting contract specifications during
     the 9 flight weeks from August 2008 through August 2009 that Zero G provided
     microgravity flight services varied from a low of approximately 38 percent (April 2009)
     to a high of 84 percent (August 2009). NASA researchers stated that they have greater
     opportunity to successfully conduct their experiments when Zero G flies a high rate of
     parabolas that meet contract specifications. In that regard, Zero G improved its rate of
     successful parabolas5 flown since contract inception. For example, during the first flight
     week in August 2008, Zero G flew just 54 percent successful parabolas. Following some
     aircraft modifications and parabolic flight training for its pilots, Zero G flew 84 percent
     successful parabolas during the flight week in August 2009 and 83 percent of the
     researchers we surveyed rated Zero G’s flight services for that week as good or excellent.

     We concluded that the contract NASA entered into with Zero G does not motivate
     consistent, high-quality performance on the part of the contractor. Specifically, the
     indefinite-delivery, indefinite-quantity contract provides for performance-based payments
     that allow Zero G to receive 100 percent of the negotiated hourly rate if the contractor
     flies only 60 percent successful parabolas, and 80 percent to 90 percent of the hourly rate
     when Zero G flies just 30 percent to 59 percent successful parabolas. This payment
     structure was originally designed to encourage bidding on the contract and motivate
     contractors to meet performance levels. However, Zero G was the sole bidder on the
     contract, and the structure of the agreement resulted in Zero G earning approximately
     94 percent of the value of the issued task orders even though Zero G exceeded an
     80 percent successful parabola rate during only 2 of its 9 flight weeks from August 2008
     through August 2009. Therefore, to provide incentive for Zero G to consistently deliver a
     higher parabola success rate, we recommend that NASA revise the contract’s
     performance-based payment structure so that payments more accurately reflect the
     contractor’s performance.

     NASA Has No Risk Management Plan for Loss of Zero G Services. The Flight Crew
     Operations Directorate (FCOD) at Johnson had not developed a written, approved plan to
     mitigate the risk if, for some reason, Zero G stopped providing microgravity flight

     5
         Reduced gravity aboard an aircraft is achieved through aerobatic maneuvers known as parabolas flown by
         specially trained pilots. Successful parabolas are parabolas that meet both the microgravity level and
         length of time established by the contract statement of work.



ii                                                                                      REPORT NO. IG-10-015
OVERVIEW



  services to NASA. NASA Procedural Requirements (NPR) 8000.4A, “Agency Risk
  Management Procedural Requirements,” December 16, 2008, requires that the manager
  of each NASA organizational unit designate a risk manager and develop a risk
  management plan to address safety, technical, cost, and schedule risks. The Johnson
  FCOD stated that a risk management plan was not developed for the possible loss of
  microgravity flight capability because the Space Operations Mission Directorate (SOMD)
  intends to use the C-9 aircraft, which is in flyable storage,6 if Zero G withdraws from the
  contract or cannot perform. However, NASA management had not adequately
  considered the cost of maintaining the C-9 in an operational status nor analyzed the
  potential that using the C-9 may not meet its needs for microgravity flight services and
  had not developed a formal plan to mitigate that risk.

  NASA’s Reduced Gravity Program, which provides the simulated weightlessness of a
  zero gravity space flight environment for the development and verification of space
  hardware and experiments, crew training, and basic research could be adversely affected
  by schedule delays and cost increases if Zero G is unable or unwilling to provide flight
  services. Although Zero G stated that it is committed to fulfilling its NASA contract,
  which has options through 2012, Zero G is currently the sole domestic commercial
  provider of microgravity flight services. Therefore, NASA faces an unmitigated risk of
  interruption in microgravity flight services if Zero G is unable or unwilling to provide
  flight services in the future.

  NASA Overpaid Zero G Due to a Lack of Internal Controls. In examining the
  approximately $2 million in payments NASA made to Zero G in accordance with the
  terms of the contract, we determined that NASA overpaid Zero G by approximately
  $23,000. The contracting officer (CO) transposed numbers for the hourly flight rate that
  resulted in overpayments to Zero G, which went undetected by NASA and Zero G. The
  overpayment went undetected because the Glenn Research Center’s Procurement
  Division, which managed the contract, had not implemented adequate internal controls to
  validate that the CO’s calculations were accurate and the payments were consistent with
  the contract terms. After we brought the calculation errors to the CO’s attention, steps
  were taken to recover the overpayment by coordinating with the contractor and reducing
  the next disbursement to Zero G by the amount of the overpayment. We concluded that
  NASA needs to improve its internal controls to validate calculations and payments in its
  contract with Zero G.




  6
      The intent was to reduce costs to the minimal subsistence level while keeping the aircraft available should
      it be needed. During flyable storage, NASA generally flies the C-9 for one 2-hour flight every 6 weeks to
      maintain one flight crew at minimal currency levels. No operational flying (other than to maintain
      currency levels) occurs without specific approval of NASA Headquarters.



REPORT NO. IG-10-015                                                                                                iii
                                                                                        OVERVIEW



     Management Action

     We recommended that the Johnson Director of Procurement negotiate a revised
     performance-based payment structure to provide incentives for Zero G to deliver more
     consistent, high-quality microgravity flight services. We also recommended that the
     Associate Administrator for SOMD direct the Johnson FCOD to develop a risk
     management plan for meeting NASA’s microgravity flight needs if Zero G is unwilling
     or unable to do so. In addition, we recommended that the Chief of Glenn’s Procurement
     Division implement additional controls to detect and prevent errors when calculating
     payments to contractors.

     In response to our May 19, 2010, draft of this report, the Associate Administrator for
     Space Operations generally concurred with our recommendations and stated that NASA
     will redefine the payment structure in the follow-on microgravity contract, will formally
     document a risk management plan in Johnson’s Integrated Risk Management
     Application, and will implement controls to avoid errors in payments to contractors (see
     NASA’s comments in Appendix D).

     We consider the Associate Administrator’s proposed actions to be responsive to our
     recommendations. Therefore, the recommendations are resolved and will be closed upon
     verification that management has completed the corrective actions.




iv                                                                         REPORT NO. IG-10-015
JUNE 18, 2010




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5

  RESULTS
      The Quality of Zero G’s Microgravity Flight Service
        Was Inconsistent ___________________________________ 6
      NASA Had No Risk Management Plan for Loss of
        Zero G Services ___________________________________ 12
      NASA Overpaid Zero G Due to a Lack of Internal Controls ____ 15

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls ____________________________ 20
      Prior Coverage ______________________________________ 20

  APPENDIX B
      Questionnaire _______________________________________ 21

  APPENDIX C
      Johnson FCOD Response ______________________________ 23

  APPENDIX D
      Management Comments ______________________________ 24

  APPENDIX E
      Report Distribution ___________________________________ 26




REPORT NO. IG-10-015
JUNE 18, 2010




                                                                                      INTRODUCTION


Background

  Microgravity Flight. Microgravity flights provide a short duration reduced gravity
  environment for NASA research, engineering, astronaut training, and education.
  Reduced gravity aboard an aircraft is achieved through aerobatic maneuvers known as
  parabolas flown by specially trained pilots (as shown in the following figure).

  Before starting a parabola, the pilot flies level to the horizon at an altitude of around
  24,000 feet. The pilot begins to pull up, gradually increasing the angle of the aircraft to
  about 45 degrees above the horizon and reaching an altitude of approximately 34,000
  feet. During ascent, passengers feel the pull of 1.8 times the gravitational force of Earth.
  Next, the plane is “pushed over” to create the microgravity segment of the parabola.7 For
  the next 20 to 30 seconds, passengers in the plane experience varying degrees of
  weightlessness as the aircraft drops from approximately 34,000 to 24,000 feet. When the
  plane pulls out of the dive, it may resume level flight for a period of time before
  beginning the next parabola.

                                                 Parabolic Flight




             Source: http://www.gozerog.com/index.cfm?fuseaction=Experience.How_it_Works
               (accessed December 28, 2009; as of April 21, 2010, the link is to a video).

  In addition to simulating zero gravity, parabolic maneuvers also can simulate lunar
  gravity (one-sixth the gravity of Earth) or Martian gravity (one-third the gravity of Earth).
  These varying gravity levels are created by flying a larger arc at the top of the parabola.
  7
      As the plane goes over the top of the arc, the centrifugal force cancels out the gravitational force pulling
      downward. At this point, passengers experience microgravity because only negligible gravitational forces
      are present. The sense of weightlessness lasts for about 30 seconds.



REPORT NO. IG-10-015                                                                                                 1
                                                                                            INTRODUCTION



    A parabolic flight maneuver requires approximately 10 miles of airspace to perform.
    During a typical flight, the pilot flies 3 to 5 sets of 12 to 15 parabolic maneuvers with
    short periods of level flight between each set.

    History of NASA’s Microgravity Flight Services. The Flight Crew Operations
    Directorate (FCOD) at Johnson Space Center operates NASA’s Reduced Gravity
    Program under the direction of the Space Operations Mission Directorate (SOMD). The
    Reduced Gravity Program provides the simulated weightlessness of a zero gravity space
    flight environment for test and training purposes – specifically, for the development and
    verification of space hardware and experiments, crew training, and basic research.
    Beginning about 1958, microgravity flight services were provided to NASA by the
    U.S. Air Force. In 1973, NASA personnel at Johnson began providing microgravity
    services using a modified Boeing KC-135A aircraft. In 2005, NASA began using a
    McDonnell Douglas DC-9B (C-9) aircraft obtained from the U.S. Navy for microgravity
    flights. From that point until 2008, the C-9 was the primary source for NASA’s
    microgravity flights.

    In an August 1995 U.S. House of Representatives Report,8 the Committee on Science
    stated that Congress found no national security or mission-critical justification for NASA
    to maintain a fleet of aircraft to provide microgravity flight services. The House Report
    states that NASA “shall privatize all parabolic flight aircraft operations . . ..” However,
    NASA could not find a viable domestic source for microgravity flights at that time, and it
    was not until the fall of 2004 that the Zero Gravity Corporation (Zero G) commenced
    commercial microgravity flight operations. Subsequently, in September 2005 NASA’s
    Office of Program Analysis and Evaluation conducted a trade study to compare
    microgravity flight services costs and capabilities of NASA’s C-9 with Zero G’s Boeing
    727. Although the study showed that there would be an approximately 90 percent
    increase in direct cost per flight hour, it concluded that in light of decreasing demand for
    microgravity flight services, there would be little difference in the overall full cost to
    NASA. In a November 2005 letter to NASA’s Associate Administrator, the Associate
    Administrator for Program Analysis and Evaluation stated that “[Johnson Space Center]
    should begin the procurement process to acquire all other reduced gravity aircraft
    services from Zero G.”

    In July 2006, Johnson initiated market research to determine commercial microgravity
    sources through a Request for Information on the Federal Business Opportunities portal.9
    Although four companies, including Zero G, expressed interest in providing NASA with
    microgravity flight services in response to the Request for Information, only Zero G
    could provide an aircraft. The other three companies were interested in a contract using a
    Government-furnished aircraft. Federal Acquisition Regulation (FAR) Part 45.102,
    “Government Property, Policy,” states that “[c]ontractors are ordinarily required to
    8
        House Report 104-233, which provided comments on the National Aeronautics and Space Administration
        Authorization Act, Fiscal Year 1996. Available online at http://frwebgate.access.gpo.gov/cgi-
        bin/getdoc.cgi?dbname=104_cong_reports&docid=f:hr233.104.pdf (accessed April 21, 2010).
    9
        https://www.fbo.gov/ (accessed April 21, 2010).



2                                                                                   REPORT NO. IG-10-015
INTRODUCTION



  furnish all property necessary to perform Government contracts.” Further, NASA FAR
  Supplement, Part 1845.102-70, “Government Property, NASA policy,” states that
  “Government property shall not be provided to contractors unless all other alternatives
  are not feasible.” Accordingly, NASA’s procurement team required interested companies
  to provide their own aircraft as part of their proposal.

  On January 2, 2008, NASA awarded an indefinite-delivery, indefinite-quantity contract
  with 4 option years to Zero G for microgravity flight services through 2012. The
  maximum contract value is approximately $26 million if all options are exercised. Glenn
  Research Center’s Procurement Division managed the contract with Zero G from its
  inception through June 2009, when responsibility transferred to Johnson’s Office of
  Procurement. The contract provides that NASA will schedule a minimum of 1 but not
  more than 20 flight weeks10 (approximately 8.4 to 168 hours) each contract year and sets
  flight-hour rates ranging from $27,800 to $31,289 for flights from Johnson. From
  contract inception in January 2008 through March 2010, Zero G flew only about 70 flight
  hours during 9 flight weeks. According to NASA officials, the low number of
  microgravity flight hours was due in part to decreasing budgets, concern for the quality of
  Zero G’s flight services, and the full cost of the Zero G flight service being borne by the
  users of the services, such as NASA researchers and the Office of Education.

  Disposition of NASA’s C-9. During fiscal years 2006 and 2007, the last years the C-9
  was fully operational before NASA began removing it from active microgravity flight
  service, the C-9 flew an annual average of 168 microgravity flight hours. In 2008, the
  C-9 flight rate decreased in order to redirect some flights to the Zero G contract. In fiscal
  years 2008 and 2009, the C-9 flew approximately 107 and 39 microgravity flight hours,
  respectively. (See Table 1 for C-9 microgravity flights by year.)

  On November 19, 2008, NASA’s Strategic Management Council directed SOMD and
  Johnson to place the C-9 aircraft in flyable storage by January 2009 for transition or
  disposal upon completion of the Space Shuttle Program. Except for completing a series
  of previously approved physiological experiments, NASA stopped using the C-9 aircraft
  for microgravity flights in January 2009 and placed the aircraft in flyable storage at
  Ellington Field in Houston, Texas. Johnson officials said that flyable storage reduces
  costs to a minimum while keeping the aircraft available for microgravity flight should it
  be needed. Flyable storage costs for January through December 2009 totaled
  approximately $854,000. This compares to total operational costs of approximately
  $2.8 million in fiscal year 2007, the last year the C-9 was fully operational. In February
  2009, the Acting NASA Administrator issued a Program Decision Memorandum that
  directed SOMD to retain the C-9 in flyable storage through fiscal year 2011.


  10
       A flight week begins on Monday with a test readiness review. Flights are conducted Tuesday through
       Friday. Each flight includes reduced gravity parabolic trajectories. Aircraft unloading is conducted on
       Friday after the flight is completed. Normal hours for flight week activities are 7 a.m. to 6 p.m. Flight
       weeks have only been conducted out of Ellington Field in Houston, Texas, although they can also be
       conducted out of Glenn Research Center in Cleveland, Ohio.



REPORT NO. IG-10-015                                                                                               3
                                                                                                    INTRODUCTION




                                       Table 1. C-9 Flights by Fiscal Year

           Fiscal     Microgravity
           Year       Flight Hours        Flights                             Notes
            2005              6.6            4       C-9 was operational for only 1 month in 2005
            2006           184.9            97
            2007           151.1            72
            2008           106.6            56       C-9 flights reduced because of Zero G contract
                                                     All C-9 flights after January 1, 2009, required
                                                       NASA Headquarters’ approval as exceptions.
            2009            39.0            16
                                                       In addition, the Johnson Director can approve
                                                       C-9 flights to support hurricane evacuation.


    NASA generally flies the C-9 for one 2-hour flight every 6 weeks to maintain aircrew at
    minimum currency levels.11 No other use of the C-9 aircraft occurs without specific
    approval of NASA Headquarters.12 Examples of other flights since January 2009
    included scouting a safe route for the Space Shuttle when it needed to be flown back to
    Kennedy Space Center in Florida from Edwards Air Force Base in California in June
    2009 and again in September 2009.

    Personnel in NASA’s Aircraft Management Division stated that the final disposition of
    the C-9 will depend on Zero G demonstrating sustained success in meeting NASA’s
    microgravity mission requirements. They also said that the Office of Infrastructure will
    make the decision concerning the C-9’s final disposition after reviewing aircraft
    requirements in accordance with NPR 7900.3B, “Aircraft Operations Management,”
    June 14, 2007.

    Office of Inspector General (OIG) Reviews. In November 2006, the OIG received an
    anonymous complaint alleging that the procurement for microgravity services may be
    improper, would result in a waste of Government funds, and raised potential safety
    concerns. An initial OIG review did not substantiate the complaint, but we conducted a
    follow-up review in June 2008 to determine (1) the status of the contract, (2) whether the
    task orders issued to Zero G exceeded NASA’s mission requirements, and (3) whether
    any NASA civil service positions were eliminated because of the contract. We
    determined that NASA had issued two task orders (as of June 2008) valued at
    approximately $467,000 to Zero G for approximately 17 microgravity flight hours. With
    just two task orders issued, we could not determine whether the contract had resulted in
    the acquisition of microgravity flight capability that exceeded the Agency’s mission

    11
         Each aircraft crew position for each aircraft type has a minimum set of requirements, such as flight hours
         and landing approaches, which must be accomplished periodically so that the aircrew can fly the
         aircraft’s mission without an instructor present.
    12
         The Director, Johnson Space Center, can authorize the use of the C-9 for hurricane evacuation.



4                                                                                          REPORT NO. IG-10-015
INTRODUCTION



  requirements. Although we determined that the award of the Zero G contract did not
  eliminate any civil service positions, Johnson estimated that any Agency decision to
  discontinue the Reduced Gravity Program would result in reassigning the work of
  approximately two full-time equivalent employees.


Objectives

  The overall objective of this audit was to determine whether Zero G provided adequate
  microgravity flight services to NASA and was paid in accordance with the contract terms.
  We also evaluated NASA’s efforts to disposition the C-9 aircraft it formerly used to
  conduct its own microgravity flights. See Appendix A for details of the audit’s scope and
  methodology, our review of internal controls, and prior coverage.




REPORT NO. IG-10-015                                                                          5
                                                                                        RESULTS




                                                 THE QUALITY OF ZERO G’S
                                             MICROGRAVITY FLIGHT SERVICE
                                                      WAS INCONSISTENT

           We found that Zero G provided inconsistent levels of microgravity flight services to
           NASA. Specifically, the percentage of parabolas meeting contract specifications
           during the 9 flight weeks from August 2008 through August 2009 that Zero G
           provided microgravity flight services ranged from a low of approximately 38 percent
           (April 2009) to a high of 84 percent (August 2009), with a mean of 61 percent.
           NASA researchers stated that they have a greater opportunity to conduct experiments
           when parabolas consistently meet contract specifications.

           The lead NASA technician for the Reduced Gravity Program stated that the quality
           of Zero G’s parabolas had improved over time after modifications to Zero G’s
           Boeing 727 aircraft and completion of parabolic maneuver training by Zero G’s
           pilots. However, we believe that the performance-based payment structure in the
           indefinite-delivery, indefinite-quantity contract with Zero G does not provide
           sufficient financial incentives for Zero G to provide consistent, high-quality reduced
           gravity flights. For example, NASA pays 100 percent of the contract’s hourly rate
           even if only 60 percent of Zero G’s parabolas meet contract specifications on a given
           flight. When less than 60 percent of the parabolas meet the statement of work
           specifications, NASA pays Zero G a reduced percentage of the hourly rate. NASA
           established the performance-based payment structure to encourage the contractor to
           meet required performance levels yet keep penalties small enough to attract bidding
           on the contract. However, the payment structure has resulted in Zero G earning
           approximately 94 percent of the value of the issued task orders even though Zero G
           exceeded an 80 percent successful parabola rate in only 2 of its 9 flight weeks from
           August 2008 through August 2009. Moreover, only 5 of the 9 flight weeks
           (56 percent) from August 2008 through August 2009 averaged more than a
           60 percent success rate.


Inconsistent Microgravity Flight Services

    The lead NASA technician for the Reduced Gravity Program stated that the quality of
    Zero G’s parabolas had improved over time after some modifications to Zero G’s 727
    aircraft and completion of parabolic maneuver training by Zero G’s pilots. Although
    Zero G’s parabola success rate rose from 54 percent for the August 2008 flight week to
    84 percent for the August 2009 flight week, Zero G’s performance was inconsistent
    during the first 12-month period, exceeding a 60 percent weekly success rate only five
    times and an 80 percent weekly parabola success rate only twice over the 9 flight weeks
    from August 2008 through August 2009. Chart 1 shows the weekly percentage of
    parabolas Zero G flew that met contract specifications.


6                                                                         REPORT NO. IG-10-015
RESULTS




                           Chart 1. Parabolas Meeting Specifications


             100                                                                          P
              90                                                                  84.05   e
                                          80.75
              80                                                                          r
                                                          63.75           66.43           c
              70           60.5   59.75
              60   53.86                                                                  e
              50                                  42.75                                   n
                                                                  37.77
              40                                                                          t
              30                                                                          a
              20                                                                          g
              10                                                                          e
               0                                                                          s




                                             Flight Weeks
                                   Parabolas Meeting Specifications


  The Johnson FCOD and program managers stated that the historic parabola success rate
  with the C-9 had been over 90 percent. NASA program managers told us that Zero G’s
  performance has been an issue of concern for researchers, who now had to fund the full
  cost of the flight services. The program managers said they have a greater likelihood of
  successfully completing experiments when parabolas consistently meet contract
  specifications. A Zero G program manager conceded that the company has experienced
  performance challenges, but stated that the company had dedicated its own resources to
  improve the quality of microgravity flight services by installing better instrumentation on
  the aircraft and providing pilot training to increase proficiency.


Zero G Provided Satisfactory Flight Services during the August
  2009 Flight Week

  We developed a questionnaire for NASA researchers conducting reduced gravity
  experiments to assess user satisfaction with Zero G’s microgravity flight services (see
  Appendix B). The questionnaire asked the researchers to rate safety, success of their
  experiment, quality and duration of the microgravity level, and overall satisfaction.

  We distributed the questionnaire to the 88 researchers who participated in Zero G’s
  August 11–14, 2009, flight week. The researchers conducted a variety of experiments
  that included microgravity fluid dynamics, Martian and lunar dust mitigation, modeling
  of cardiovascular dynamics, and measures to counter motion sickness. We received



REPORT NO. IG-10-015                                                                            7
                                                                                                          RESULTS



    63 completed questionnaires (a 72 percent return rate). Overall, Zero G’s flight services
    ratings were mostly good or excellent, as shown in Chart 2.



                            Chart 2. Questionnaire Results for the Flight Week of
                                    August 11–14, 2009 (63 respondents)

                       60
                       50
                       40
                       30
                       20
                       10
                        0




                                                            Safety
                                      Performance
                                                            Success of experiment
                                       Evaluation
                                            Areas           Quality of requested microgravity level
                                                            Duration of microgravity level
                                                            Overall satisfaction




Microgravity Flight Specifications and Payment Structure

    The Zero G contract establishes microgravity flight requirements and performance-based
    payments based on the number of acceptable flight maneuvers performed by Zero G.13
    NASA evaluated each flight flown from August 2008 through August 2009 during the
    9 flight weeks14 purchased from Zero G under the contract.

    The original contracting officer’s technical representative (COTR) at Glenn stated that
    prior to release of the request for proposal, the acquisition team – which included subject
    matter experts with experience in microgravity flight services – developed the
    performance standards. These standards included safety, for which failure to meet NASA

    13
         Payment rates established in the contract for years 2008 through 2012 range from $27,800 to $31,289 per
         flight hour for flights out of Johnson. Payments can be adjusted downward based on parabola success
         rates.
    14
         NASA issued 12 task orders for 12 flight weeks, but subsequently terminated 3 flight weeks due to lack
         of funding.



8                                                                                        REPORT NO. IG-10-015
RESULTS



  requirements would result in zero payment; contractor-caused delays, which would result
  in downward price adjustments; and parabola quality. As of March 2010, there have
  been no payment adjustments due to safety or contractor-caused delays.

  The COTR stated that the objectives of the parabola quality standard were to encourage
  the contractor to have an aircraft guidance system capable of meeting the gravity level
  requirements and to motivate the contractor to use its best pilots over the life of the
  contract to achieve the highest percentage of required parabolas. The team based the
  gravity performance levels on their experience in providing microgravity services to the
  research community and established levels that NASA aircraft could routinely achieve,
  but added some buffer for human factors and weather.

  Table 2 shows the flight specifications in the statement of work for microgravity or
  partial gravity levels and duration.

                                        Table 2. Flight Specifications
                           Microgravity/Partial                Time Requirements
                           Gravity Requirements               (continuous seconds)
                               0.00 g +/- 0.02 g                         10
                               0.00 g +/- 0.05 g                         17
                               0.10 g +/- 0.05 g                         20
                               0.16 g +/- 0.05 g                         20
                               0.20 g +/- 0.05 g                         20
                               0.30 g +/- 0.05 g                         20
                               0.38 g +/- 0.05 g                         20
                               0.40 g +/- 0.05 g                         20
                               0.50 g +/- 0.05 g                         20


  Although NASA payments to Zero G comply with contract terms, we do not believe that
  those terms motivated the contractor to consistently fly a high rate of successful
  parabolas. Specifically, the COTR evaluates the flights using an accelerometer mounted
  on board the Zero G aircraft. The accelerometer measures and records the duration and
  level of reduced gravity attained by Zero G during each flight.15 After each reduced
  gravity flight, NASA determines the parabola success rate, which is the percentage of
  parabolic trajectories flown that met the contract specifications (statement of work) for
  microgravity/partial gravity requirements and time requirements (continuous seconds).
  In accordance with the contract’s performance-based payment structure, NASA pays
  Zero G 100 percent of the hourly rate when a flight’s parabola success rate meets contract
  specifications 60 percent of the time or more. When the success rate is less than

  15
       The COTR used an accelerometer on all but two flights to determine the amount earned by Zero G.
       Zero G flew one demonstration flight, and NASA terminated one flight due to weather conditions. In
       accordance with contract terms, the COTR did not evaluate those two flights, and the contractor received
       the full hourly rate established in the contract.



REPORT NO. IG-10-015                                                                                              9
                                                                                                           RESULTS



     60 percent, NASA pays the contractor a reduced rate for the flight hours during that flight
     week, as shown in Table 3.


                                   Table 3. Performance-Based Payment Rate
                      Percentage of Reduced Gravity Maneuvers
                       that Meet the Statement of Work                         Payment Rate
                               60% or more                                          100%
                               46% to 59%                                           90%
                               30% to 45%                                           80%
                               16% to 29%                                           70%
                               0 to 15%                                             60%


     According to the COTR at Glenn, NASA’s goal in establishing these performance-based
     payment rates was to make the penalties big enough to encourage the contractor to meet
     established performance levels, yet small enough that the contractor would bid on the
     contract and keep the price reasonable. Although there have been no payment
     adjustments based on safety or contractor-caused delays, payment for almost 80 percent
     of the task orders issued from August 2008 through August 2009 to Zero G have been
     decreased due to parabola quality.16 Nevertheless, overall Zero G earned about
     94 percent of the value of issued task orders ($1,852,470 of $1,980,25017).


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Johnson Director of Procurement should negotiate a revised
performance-based payment structure to provide greater incentives for the contractor to
deliver consistent, high-quality microgravity flight service.

     Management’s Response. The Associate Administrator for Space Operations concurred
     with the intent of the recommendation. He stated that NASA intends to redefine the
     payment structure during the development of the follow-on microgravity contract
     procurement strategy to ensure customers pay only for consistent, high-quality parabolas.
     However, the Associate Administrator’s response stated that restructuring the current
     contract for option years 2011 and 2012 is not feasible for a variety of reasons described
     in his response. Although NASA did not provide an estimated date to redefine the
     16
          The CO issues a task order for each flight week that typically contains four flight days. The CO
          decrements each task order whenever Zero G flies less than 60 percent successful parabolas during a
          flight day.
     17
          These amounts do not include $150,000 for insurance or $64,559 fuel credits that NASA paid to Zero G.



10                                                                                         REPORT NO. IG-10-015
RESULTS



  payment structure for future microgravity flight services, we expect NASA to take this
  action no later than December 31, 2012, the end of the final option period for the Zero G
  contract.

  Evaluation of Management’s Response. The Associate Administrator’s response and
  planned actions are responsive to the recommendation. Therefore, the recommendation
  is resolved. Although NASA requested that we close this recommendation upon issuance
  of our report, we will close the recommendation after verifying that management has
  taken corrective action by redefining the payment structure in the follow-on microgravity
  contract.




REPORT NO. IG-10-015                                                                          11
                                                                                           RESULTS




                                                         NASA HAD NO RISK
                                                   MANAGEMENT PLAN FOR LOSS
                                                         OF ZERO G SERVICES

            The Johnson FCOD had not developed a risk management plan to address the
            possibility that Zero G might be unable to perform future microgravity flight
            services, which would leave NASA with no commercial option to obtain
            microgravity flights. NASA policy requires that NASA risk managers develop a risk
            management plan to identify and mitigate risks to their programs. FCOD personnel
            stated that they had not developed a plan to address the possibility of Zero G’s
            inability to provide microgravity flights because if that occurred they expect NASA
            to use its C-9 aircraft. However, NASA management had not adequately analyzed
            the potential for performance shortfalls, which could occur in the future with respect
            to meeting NASA’s needs for microgravity flight services. Specifically, NASA had
            not developed a systematic process that identifies, analyzes, and documents risks that
            Zero G might not provide future microgravity flight services. As a result, NASA’s
            Reduced Gravity Program could experience schedule delays and cost increases if
            Zero G, the only current commercial provider of microgravity flight services in the
            United States, is unable or unwilling to continue providing those services.


Risk Management Plan Required

     NASA Procedural Requirements (NPR) 8000.4A, “Agency Risk Management Procedural
     Requirements,” December 16, 2008, requires that the manager of each NASA
     organizational unit designate a risk manager and develop a risk management plan to
     address safety, technical, cost, and schedule risks associated with major programs in their
     area of responsibility. The NPR states that risk managers should manage risks using a
     Continuous Risk Management process, which is defined as “a systematic and iterative
     process that efficiently identifies, analyzes, plans, tracks, controls, and communicates and
     documents risks associated with implementation of designs, plans, and processes.” The
     NPR also states that organizational unit managers should ensure that acquisition-related
     risks are continuously managed and that documentation is maintained in accordance with
     NASA Policy Directive 1440.6H, “NASA Records Management,” March 24, 2008, and
     NPR 1441.1D, “NASA Records Retention Schedule,” February 24, 2003. Mission
     Directorates are responsible for management of programmatic risks within the
     Directorate, and program and project managers are responsible for program and project
     risks within their respective programs and projects.




12                                                                          REPORT NO. IG-10-015
RESULTS



Significant Risks for Microgravity Flight Services Had Not Been
  Adequately Identified and Mitigated

  The Johnson FCOD had not developed a formal risk management plan to identify and
  mitigate risks associated with the microgravity flight services. One significant risk is the
  potential that Zero G might be unable or unwilling to provide future microgravity flight
  services. We interviewed Zero G management personnel and asked whether the
  relatively small number of microgravity flights flown since contract award in 2008 had
  affected their interest in continuing to provide parabolic flight services to NASA. Zero G
  management stated that it was disappointed in the reduction in the number of flight
  weeks, but said they were committed to providing NASA with future flights.
  Specifically, Zero G pointed out that it had made significant investments in configuring
  its plane to NASA specifications and training pilots to conduct reduced gravity flights.
  However, because Zero G is currently the only commercial provider of microgravity
  flight services in the United States, we see this as a significant risk that should be
  assessed by FCOD and, in keeping with NASA risk management policy, specific
  alternatives developed.

  In November 2008, NASA’s Strategic Management Council directed that SOMD retain
  the C-9 in flyable storage through fiscal year 2011. Following the Council’s direction,
  except for completing a series of previously approved physiological experiments,
  Johnson FCOD stopped using the NASA C-9 aircraft for microgravity flights in January
  200918 and placed the aircraft in flyable storage at Ellington Field in Houston (see
  FCOD’s response to the Program Decision Memorandum in Appendix C). However,
  SOMD personnel noted that FCOD had not incorporated the cost of maintaining the C-9
  aircraft for operational use into a risk management plan addressing the risk of Zero G not
  providing the Agency’s microgravity flight services needs. The cost of maintaining the
  C-9 for operational use is likely to be a significant factor and FCOD should evaluate its
  impact as part of a risk management plan.


NASA’s Reduced Gravity Program Will Be Adversely Affected if
 Zero G Does Not Perform

  NASA’s Reduced Gravity Program could experience schedule delays and cost increases
  if Zero G is unwilling or unable to provide future microgravity flight services. Delays in
  the availability of microgravity flights would negatively affect NASA research of
  materials and life sciences, engineering development for the next generation of space
  flight vehicles and the International Space Station, and for astronaut training and
  education. Because Zero G is currently the only commercial, domestic provider of

  18
       Johnson flew 51 microgravity flights (97.2 flight hours) with its C-9 in fiscal year 2008 after the contract
       was awarded to Zero G. According to the Johnson COTR, after contract award on January 2, 2008, Zero
       G was modifying its aircraft through July 2008 to better fly microgravity missions. Zero G flew its first
       microgravity contract flight in August 2008.



REPORT NO. IG-10-015                                                                                                  13
                                                                                          RESULTS



     microgravity flight services, a systematic process that identifies, analyzes, and documents
     risk mitigation strategies, to include an analysis of cost and schedule impacts, can help
     reduce the potentially negative consequences associated with a disruption of microgravity
     flight services. Moreover, identifying another commercial microgravity provider would
     involve additional procurement costs and potential contract cost increases.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 2. The Associate Administrator for SOMD should direct the Johnson
FCOD to develop a formal risk management plan that identifies specific options to maintain
NASA’s access to microgravity flights if Zero G ceases providing microgravity flight
services. Such analyses should include the cost of identifying another commercial
contractor as well as the cost of maintaining the C-9 aircraft for operational use.

     Management’s Response. The Associate Administrator for Space Operations concurred
     with the intent of the recommendation and stated that FCOD will formally document a
     risk management plan in Johnson’s Integrated Risk Management Application and identify
     specific options, as well as costs, safety, and schedule considerations to maintain access
     to microgravity flights, in the event Zero G ceases to provide those services to NASA.
     The estimated completion date for this action is October 1, 2010.

     Evaluation of Management’s Response. The Associate Administrator’s planned
     actions are responsive to the recommendation. Therefore, the recommendation is
     resolved. We will close the recommendation upon verifying that management has taken
     the corrective action.




14                                                                          REPORT NO. IG-10-015
RESULTS




                                          NASA OVERPAID ZERO G DUE TO
                                                   A LACK OF INTERNAL
                                                            CONTROLS

          NASA’s payments to Zero G of approximately $2 million over a two-year period
          were in accordance with the contract terms, with the exception of a $23,000
          overpayment caused by math errors. We found that the Glenn contracting officer
          (CO) transposed numbers for the hourly flight rate in calculating payments due
          Zero G on three task orders and made a minor math error on one. The errors resulted
          in overpayments of approximately $23,000 that were not detected by NASA or
          Zero G. NASA overpaid Zero G because Glenn’s Procurement Division had not
          implemented adequate internal controls to validate that the CO’s calculations were
          accurate and the payments were consistent with the contract terms. After we brought
          the payment calculation errors to the CO’s attention, Glenn’s Procurement Division
          recovered the overpayments by reducing a subsequent disbursement to Zero G by the
          amount of the overpayment.


NASA’s Contract with Zero G

  We determined that NASA generally paid Zero G in accordance with contract terms;
  however, a lack of internal controls resulted in NASA overpaying Zero G on 4 out of 10
  paid task orders. The contract requires the CO to calculate payments for each task order
  based on a specific hourly flight rate, the number of hours flown, and an objective
  performance factor for each flight. At the end of each flight week, the CO obtains the
  flight hours and the performance factors for each flight from the COTR. The CO
  calculates the amount owed to the contractor by multiplying the hourly flight rate, the
  number of hours flown, and the performance factor for each flight. The CO provides the
  contractor with the calculations, and Zero G then submits an invoice for that amount.

  During 2008 and 2009, the CO issued 12 task orders and NASA paid Zero G almost
  $2 million for approximately 70 flight hours, insurance, and fuel credits (see Table 4).




REPORT NO. IG-10-015                                                                         15
                                                                                                    RESULTS




                              Table 4. 2008 and 2009 Zero G Task Orders

     Task Order             Disbursed        Notation

     NNC08TA78T           $ 307,394.89       9.2 flight hours plus $75,000 insurance

     NNC08TA79T*             278,861.40      10.4 flight hours

     NNC08TA85T*             125,132.00      4.8 flight hours

     NNC08TA86T*             323,729.54      11.4 flight hours

     NNC08TA89T              191,337.42      8.1 flight hours

     NNC08TB05T               75,000.00      insurance only; flights terminated for lack of funding

     NNC08TB06T                     0.00     terminated for lack of funding

     NNC08TB07T                     0.00     terminated for lack of funding

     NNC09TA28T              188,782.40      6.9 flight hours

     NNC09TA34T*             168,356.36      7.5 flight hours

     NNC09TA42T              135,707.62      5.8 flight hours

     NNC08TB11T              143,608.60      6.1 flight hours

      Total               $1,937,910.23      70.2 flight hours and insurance

     *Included payment errors (see Table 5). The overpayments were recovered by an adjustment on task
      order NNC08TB11T.




CO Overpaid Zero G

     As stated previously, the CO made errors that resulted in overpayments to Zero G of
     approximately $23,000. The contract defines a maximum hourly flight rate of $27,800 in
     2008 for flights originating from Johnson. However, the CO transposed numbers for the
     hourly flight rate and used $28,700 instead of $27,800 in calculating payments due
     Zero G on three task orders and made an extremely small math error ($0.80) on a fourth
     task order (see Table 5).




16                                                                                  REPORT NO. IG-10-015
RESULTS




                               Table 5. Overpaid Task Orders

      Task Order       Overpayment      Reason

      NNC08TA79T         $ 8,874.00     CO used $28,700 vice $27,800 contract flight rate

      NNC08TA85T            3,924.00    CO used $28,700 vice $27,800 contract flight rate

      NNC08TA86T          10,260.00     CO used $28,700 vice $27,800 contract flight rate

      NNC09TA34T                 .80    CO math error

       Total             $23,058.80




Internal Controls Were Inadequate to Ensure Proper Contract
  Payments Were Made

  Glenn’s Procurement Division did not have an adequate internal control process to detect
  and prevent payment calculation errors. NPR 9010.3, “Financial Management Internal
  Control,” September 30, 2008, requires that internal controls be implemented to provide
  reasonable assurance that all recorded transactions are valid to prevent errors from being
  introduced into official accounting records. However, no other Glenn employees
  reviewed the Glenn CO’s calculations for Zero G payments. To address this control
  weakness, the Procurement Division could assign an independent person to validate that
  the CO’s calculations are accurate and in accordance with the contract terms.


Recovery of Overpayment

  After we made the CO aware of the overpayments, the CO and Zero G signed a contract
  modification that described the transposition errors and documented an agreement to
  reduce NASA’s obligation on task order NNC08TB11T by $23,058.80. This adjustment
  fully recovered the overpayment.




REPORT NO. IG-10-015                                                                           17
                                                                                            RESULTS



Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 3. The Chief of Glenn’s Procurement Division should review its internal
controls for payments to contractors and modify its controls and procedures to detect and
prevent errors like those to Zero G when calculating payments to contractors.

     Management’s Response. The Associate Administrator for Space Operations concurred
     with the recommendation and stated that NASA management will instruct contracting
     officers with similarly complex pricing arrangements to have the contractor
     independently price the required services. The contracting officer will then verify the
     contractor’s pricing against contract terms and conditions before issuing approval for
     payment. Although NASA’s formal response did not provide a specific completion date,
     Glenn’s Procurement Division stated in a subsequent e-mail that these actions will be
     completed by July 30, 2010.

     Evaluation of Management’s Response. The Associate Administrator’s planned
     actions are responsive to our recommendation. Therefore, the recommendation is
     resolved. However, the recommendation will remain open until Glenn’s Procurement
     Division issues formal policy that describes the specific contract pricing arrangements
     and directs contracting officers to obtain and verify the contractors’ price invoices prior
     to approval for payment. We will close the recommendation after verifying completion
     of management’s corrective actions.




18                                                                           REPORT NO. IG-10-015
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed this audit at Johnson from June 2009 through May 2010 in accordance
  with generally accepted government auditing standards. Those standards require that we
  plan and perform the audit to obtain sufficient, appropriate evidence to provide a
  reasonable basis for our findings and conclusions based on the objectives. We believe
  that the evidence obtained provides a reasonable basis for our findings and conclusions
  based on our objectives.

  During our audit work, we reviewed NASA internal controls over the contract payments
  to Zero G. We reviewed the contract payment terms, performance requirements, and the
  amounts earned by Zero G and disbursed by NASA.

  To become familiar with relevant criteria, we reviewed the Zero G contract
  (NNC08BA01B, January 2, 2008). We also reviewed applicable laws and NASA
  guidance, to include the following:
         National Aeronautics and Space Administration Authorization Act, Fiscal
         Year 1996, Section 212, “Privatization of Microgravity Parabolic Flight
         Operations.”
         National Aeronautics and Space Administration Authorization Act, Fiscal
         Year 2005, Section 108, “Commercialization Plan.”
         NPR 7900.3B, “Aircraft Operations Management,” June 14, 2007, Chapter 8,
         “Aircraft Acquisitions and Dispositions.”
         the Acting NASA Administrator’s Program Decision Memorandum, February 19,
         2009.
         NPR 8000.4A, “Agency Risk Management Procedural Requirements,”
         December 16, 2008.
         NPR 9010.3, “Financial Management Internal Control,” September 30, 2008.

  We interviewed Johnson FCOD and Headquarters Office of Infrastructure personnel to
  obtain an understanding of the microgravity flight services contract, issues regarding the
  disposition of the C-9 aircraft, and perspectives about experiment success.

  To determine whether Zero G was paid in accordance with the contract terms, we
         interviewed the NASA CO and COTRs responsible for Zero G contract oversight
         to obtain their evaluation of contractor performance and



REPORT NO. IG-10-015                                                                           19
                                                                                      APPENDIX A



            validated that the amounts billed and paid the contractor were accurate (the errors
            we identified are addressed in this report).

     We validated that steps had been taken to recover the amount NASA overpaid the
     contractor. In addition, we interviewed Zero G management personnel to assess their
     concerns regarding the decline in NASA’s microgravity flight services needs. We also
     inquired as to the likelihood and impact that a pilots’ strike could have on Zero G’s
     ability to provide microgravity flight services.

     To determine whether Zero G was providing adequate microgravity flight services to
     researchers, we developed a questionnaire for researchers to evaluate satisfaction with
     Zero G’s microgravity flight services during the August 2009 flight week (see
     Appendix B) and tabulated and evaluated the results of the questionnaire. Also, we met
     and interviewed several NASA program managers to determine whether Zero G’s
     microgravity flights adequately met their researchers’ test requirements.

     To determine the C-9 aircraft’s disposition status, we obtained various documentation,
     including the Acting NASA Administrator’s Program Decision Memorandum directing
     SOMD and Johnson to place the C-9 aircraft in flyable storage; the Johnson FCOD
     response (Appendix C), implementing a plan to place the C-9 in flyable storage; and the
     maintenance scheduled to retain the C-9 in flight status. We also observed the C-9 in the
     hangar at Ellington Field and reviewed the C-9’s flight history to determine whether its
     use was consistent with policy direction while the aircraft was in flyable storage status.

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.

     Review of Internal Controls. We reviewed internal controls associated with Zero G
     contract administration. We found that Glenn did not have adequate controls and
     procedures in place to detect and prevent errors when calculating payments to the
     contractor for microgravity flight services. We identified errors in the CO’s payment
     calculations, as discussed earlier in this report. Our recommendation, if implemented,
     will improve Glenn’s controls over contract administration.

     Prior Coverage. Neither the Government Accountability Office nor the NASA OIG has
     issued a report during the last 5 years that is relevant to the subject of our report.
     However, in 2006, the NASA OIG conducted a preliminary review in response to an
     anonymous complaint about NASA’s planned procurement of commercial microgravity
     services and determined that the complainant’s allegations did not have merit; we did not
     issue a report. We also did not issue a report on our June 2008 follow-up review of
     NASA’s microgravity flight operations.




20                                                                         REPORT NO. IG-10-015
APPENDIX B




                       QUESTIONNAIRE




REPORT NO. IG-10-015                   21
              APPENDIX B




22   REPORT NO. IG-10-015
APPENDIX C




                       JOHNSON FCOD RESPONSE




REPORT NO. IG-10-015                           23
                       APPENDIX D




     MANAGEMENT COMMENTS




24            REPORT NO. IG-10-015
APPENDIX D




REPORT NO. IG-10-015   25
                                                                                 APPENDIX E




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for Space Operations Mission Directorate
     Director, Glenn Research Center
        Chief, Procurement Division, Glenn Research Center
     Director, Johnson Space Center
        Director, Office of Procurement, Johnson Space Center
        Director, Flight Crew Operations Directorate, Johnson Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




26                                                                      REPORT NO. IG-10-015
Major Contributors to the Report:
   Raymond Tolomeo, Acting Director, Space Operations Directorate
   Kenneth Sidney, Project Manager
   Connia Webb, Team Lead
   Dennis Clay, Auditor
   Ellis Lee, Auditor
   Lawrence Neu, Aerospace Technologist




REPORT NO. IG-10-015                                                27
                                                                                         JUNE 18, 2010
                                                                        REPORT No. IG-10-015




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact
the Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations
and Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
